<html>
<title> - THE FEDERAL EMERGENCY MANAGEMENT AGENCY'S BUDGET SUBMISSION FOR FISCAL YEAR 2015</title>
<body><pre>[Senate Hearing 113-496]
[From the U.S. Government Publishing Office]






                                                        S. Hrg. 113-496

                    THE FEDERAL EMERGENCY MANAGEMENT
            AGENCY'S BUDGET SUBMISSION FOR FISCAL YEAR 2015

=======================================================================

                                HEARING

                               before the

                       SUBCOMMITTEE ON EMERGENCY
 MANAGEMENT, INTERGOVERNMENTAL RELATIONS, AND THE DISTRICT OF COLUMBIA

                                 of the

                              COMMITTEE ON
                         HOMELAND SECURITY AND
                          GOVERNMENTAL AFFAIRS
                          UNITED STATES SENATE


                    ONE HUNDRED THIRTEENTH CONGRESS

                             SECOND SESSION

                               __________

                             MARCH 13, 2014

                               __________

                   Available via http://www.fdsys.gov

       Printed for the use of the Committee on Homeland Security
                        and Governmental Affairs


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]




			       ______

                         U.S. GOVERNMENT PRINTING OFFICE 

88-284 PDF                     WASHINGTON : 2014 
-----------------------------------------------------------------------
  For sale by the Superintendent of Documents, U.S. Government Printing 
  Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; 
         DC area (202) 512-1800 Fax: (202) 512-2104 Mail: Stop IDCC, 
                          Washington, DC 20402-0001












        COMMITTEE ON HOMELAND SECURITY AND GOVERNMENTAL AFFAIRS

                  THOMAS R. CARPER, Delaware Chairman
CARL LEVIN, Michigan                 TOM COBURN, Oklahoma
MARK L. PRYOR, Arkansas              JOHN McCAIN, Arizona
MARY L. LANDRIEU, Louisiana          RON JOHNSON, Wisconsin
CLAIRE McCASKILL, Missouri           ROB PORTMAN, Ohio
JON TESTER, Montana                  RAND PAUL, Kentucky
MARK BEGICH, Alaska                  MICHAEL B. ENZI, Wyoming
TAMMY BALDWIN, Wisconsin             KELLY AYOTTE, New Hampshire
HEIDI HEITKAMP, North Dakota

                  Gabrielle A. Batkin, Staff Director
               John P. Kilvington, Deputy Staff Director
               Keith B. Ashdown, Minority Staff Director
                     Laura W. Kilbride, Chief Clerk
                     Lauren Corcoran, Hearing Clerk


SUBCOMMITTEE ON EMERGENCY MANAGEMENT, INTERGOVERNMENTAL RELATIONS, AND 
                        THE DISTRICT OF COLUMBIA

                      MARK BEGICH, Alaska Chairman
CARL LEVIN, Michigan                 RAND PAUL, Kentucky
MARK L. PRYOR, Arkansas              JOHN MCCAIN, Arizona
MARY L. LANDRIEU, Louisiana          ROB PORTMAN, Ohio
JON TESTER, Montana                  MICHAEL B. ENZI, Wyoming
HEIDI HEITKAMP, North Dakota
                     Pat McQuillan, Staff Director
                Brandon Booker, Minority Staff Director
                       Kelsey Stroud, Chief Clerk
                       
                       
                       
                       
                       
                       
                       
                       
                       
                       
                       
                       
                       
                       
                       
                       
                            C O N T E N T S

                                 ------                                
Opening statement:
                                                                   Page
    Senator Begich...............................................     1

                               WITNESSES
                        Thursday, March 13, 2014

Hon. W. Craig Fugate, Administrator, Federal Emergency Management 
  Agency, U.S. Department of Homeland Security...................     3

                     Alphabetical List of Witnesses

Fugate, Hon. W. Craig:
    Testimony....................................................     3
    Prepared statement...........................................    17

                                APPENDIX

Responses to post-hearing questions for the Record:
    Mr. Fugate...................................................    25

 
                         THE FEDERAL EMERGENCY
       MANAGEMENT AGENCY'S BUDGET SUBMISSION FOR FISCAL YEAR 2015

                        THURSDAY, MARCH 13, 2014

                                 U.S. Senate,      
              Subcommittee on Emergency Management,        
                         Intergovernmental Relations,      
                          and the District of Columbia,    
                    of the Committee on Homeland Security  
                                  and Governmental Affairs,
                                                    Washington, DC.
    The Subcommittee met, pursuant to notice, at 2:45 p.m., in 
room SD-342, Dirksen Senate Office Building, Hon. Mark Begich, 
Chairman of the Subcommittee, presiding.
    Present: Senator Begich.

              OPENING STATEMENT OF SENATOR BEGICH

    Senator Begich. I call the Subcommittee to order. Thank you 
for being patient as we had a vote on the floor. We may be 
interrupted again. The staff will keep me informed of some 
potential votes that will be coming up.
    But again, good afternoon. Welcome to the Subcommittee on 
Emergency Management, Intergovernmental Relations and the 
District of Columbia.
    We are here today to discuss the President's Fiscal Year 
(FY) 2015 budget submission for the Federal Emergency 
Management Agency (FEMA). We welcome Administrator Fugate. 
Thank you again for being patient while we got down here. I 
look forward to our discussion.
    The past few years have been very busy for FEMA. In 2013, 
the agency responded to 62 major disasters and made 28 Fire 
Assistance declarations.
    In addition to responding to last year's events, the agency 
continued recovery and mitigation work following catastrophic 
disasters from the past years, including Hurricane Sandy.
    FEMA continued to do this work under pressure to cut costs 
as we were asking agencies across the government to do. We also 
are asking FEMA to do more to aid State and local governments 
that face increasingly unpredictable threats.
    While the number of declared disasters was down this year 
from the high water mark of 2011, severe storms and flooding 
were once again common. Flood ravaged parts of the United 
States, including communities along the Yukon River and the 
Kenai Peninsula in Alaska.
    Overall the President has requested $14.7 billion in total 
discretionary funds for FEMA with almost half of that 
supporting the Disaster Relief Fund (DRF).
    DRF is vital in ensuring the Federal Government has the 
resources it needs to respond to disasters declared across the 
country, and I am pleased to see it fully funded under the 
responsible limits of the Budget Control Act.
    I am also happy to see that the budget would maintain 
funding for the emergency management performance grants and 
fire grants that fund critical operations for our Nation's 
first responders.
    While FEMA is provided with the largest increase in 
appropriations among components of the Department of Homeland 
Security (DHS), there are some decreases that are troubling and 
could affect the key missions of the agency.
    State and local grants receive nearly a 15 percent cut 
which seems in direct conflict with the increased need for 
local resources we see across the country. The Administration 
has said the decrease is partly a result of efficiencies that 
can be found within the consolidated grants proposal in the 
budget. But concerns remain to what operational impacts these 
reductions might cause.
    The proposal for the National Preparedness Grant Program 
will require a change in the 9/11 Act to restructure the 
grants. This could shift the responsibility for setting 
priorities from the Federal to the State level.
    While I am encouraged that FEMA has listened to Congress's 
request for more detailed and stakeholder outreach, 
responsibility for overseeing reform lies within the Committee.
    I look forward to working with FEMA as well as the State 
and local organizations across the country to determine if 
changes are needed. We must make sure the vital funding is 
distributed in a way that strengthens our security and 
preparedness while fulfilling our obligation to be good 
stewards of the public's money.
    Last, I continue to be concerned with the decreases in the 
flood hazard mapping and risk analysis program. This program 
plays a critical role in the development and maintenance of the 
flood maps throughout the country.
    Even as recent flood insurance legislation has made the 
accuracy of maps more important, the Administration is reducing 
the resources available to help communities, homeowners, and 
businesses understand the risk they face and make smart 
choices.
    Coastal and riverine communities across Alaska face 
increasing flood risk, yet for many, their most recent flood 
map may be decades old and not taking into account the 
increased development or changes in geography.
    I recognize the limited resources FEMA has but continuing 
to only prioritize the areas with highest populations and 
highest home values ignore the needs of rural communities that 
have built their homes and businesses along the river's edge 
dual or near the coast.
    Many of those affected are subsistence communities or 
native communities that may not be able to relocate but could 
benefit from the risk information that flood maps can provide.
    I appreciate the work that FEMA has done over the last year 
and I am sympathetic from the pressure that the agency has been 
under to implement the Sandy Recovery Improvement Act.
    I look forward to hearing more about the agency's plans for 
the upcoming year and I appreciate your willingness, Mr. 
Fugate, to continue to open dialogue with this Subcommittee.
    I will let you go ahead and have your testimony. Then I 
have some questions. I will followup. If any Member attends 
additionally, we will allow them their time for opening as well 
as questions.
    Again, thank you for being here. Hopefully we will not be 
interrupted by a vote.
    Thank you very much.

   TESTIMONY OF THE HON. W. CRAIG FUGATE,\1\ ADMINISTRATOR, 
    FEDERAL EMERGENCY MANAGEMENT AGENCY, U.S. DEPARTMENT OF 
                       HOMELAND SECURITY

    Mr. Fugate. Thank you, Mr. Chairman. I will go ahead and 
submit my written testimony for the record, if that will please 
you, and go to some very brief remarks.
---------------------------------------------------------------------------
    \1\ The prepared statement of Mr. Fugate appears in the Appendix on 
page 17.
---------------------------------------------------------------------------
    Any budget is always based upon your available resources 
with competing needs, and the needs have to be balanced across 
the entire Federal Government.
    We think this is a responsible budget. We think it 
addresses our key missions, and again it is based upon the 
priorities of an overall budget within certain parameters of 
maintaining budget controls.
    We do appreciate the fact what Congress has done for FEMA. 
Most probably, as you mentioned, the Disaster Relief Fund, part 
of the Budget Control Act that allowed that to be fully funded 
on an annualized basis versus only using supplemental processes 
to fund that.
    That has enabled us to respond this past year without 
having to shut down or reduce any level of response due to lack 
of funds. It allowed us to respond to Hurricane Sandy, one of 
the largest responses post-Katrina, again without having to 
shut down, reduce, or go into what we call immediate needs 
funding for any program.
    So, we are learning and I think what Congress is doing to 
fully fund that is a key part of our ability to continue to 
rebuild from these disasters but also be prepared for future 
catastrophic events.
    Other areas of the budget again are based upon the 
parameters of our targets. Again, it is a continuation of many 
times what we have been looking at in the past.
    I do want to highlight one thing, Mr. Chairman. In regard 
to the mitigation and understanding that the level of disaster 
response and the type of things we are facing in this Nation, 
we have been basically forced into responding to more and more 
events with higher population impacts.
    Yet we have not really been able to look at how do we make 
investment strategies to start buying down that risk. The 
President is recommending above-the-line budget requests of 
which, in the pre-disaster mitigation program, which we below 
the line have recommended zeroing out because of fitting in 
those priorities that if Congress would look at that to make 
some large-scale investments over a recurring basis, the 
requests there for about $400 million in disaster mitigation to 
look specifically at how do we mitigate against climate 
disruption, particularly when we have too much water, not 
enough water.
    Drought, as we are seeing across the Southwest, and the 
increased flood risk both coastally and from riverine flooding 
due to extremes in weather are such that if we do not make 
investments and we are not willing to get ahead of this we will 
continue to see the drawdowns in the Disaster Relief Fund in 
outyears and disasters.
    So, the President is looking at this as part of the 
investment strategies of putting the funds in the pre-disaster 
mitigation, looking before disaster strikes at how do we 
address the issue of adapting to a changing world and buying 
down future risk.
    Other areas of the budget again are based upon the input of 
all of the process to get in the budget. You covered your areas 
of concern there and I am willing to take questions.
    The last piece I wanted to briefly address was, in the 
Hurricane Sandy supplemental, you also gave us a tremendous 
amount of work to do under the Sandy Recovery Improvement Act. 
And in that program, one of the key things, Senator, we much 
applaud was a provision within the Stafford Act to change the 
designation of who could request from the Presidential 
declarations.
    Previously tribal governments were identified in the 
Stafford Act as political subdivisions that could only request 
assistance through the Governors, notwithstanding their own 
sovereignty in this country and recognition as federally 
recognized tribes. You change that. Congress gave that 
authority.
    That is a very large undertaking for us. We are going from 
about, between the States and territories, about 54, 55 
entities to over 500 additional new entities that can request 
disaster declarations.
    Based upon that legislation, we made a decision not to wait 
until we had drafted any new rules. We were using existing 
rules. So, we were able to begin receiving and processing 
disaster declarations within weeks of the law being signed into 
law.
    Notwithstanding that, there is a lot of work and 
consultation to take place in developing the policies and 
procedures for declarations for tribal governments, recognizing 
that it is going to require additional tools than what we would 
normally have available just to the State declaration process 
and a consultation process that requires us to go meet with 
tribal governments.
    This is something that we feel strongly that we have to be 
able to sit down with folks at the tribal level to discuss 
this, to get their input and to build these policies.
    Our budget reflects that internally the additional 
resources required to do that but it is a commitment that we 
are not waiting until we have all the answers to implement it 
but we have a lot of work to do to be able to successfully 
provide the tools to tribal governments for disaster 
declarations and to be able to ensure that our consultation 
process is built around those needs.
    With that, Mr. Chairman, I am open to questions.
    Senator Begich. Thank you very much. I appreciate all your 
work.
    If I can start maybe with the tribal issues. As you know in 
Alaska with almost half the tribes in the Nation and also as a 
matter of fact this week we are having many of the tribes from 
my State and across the Nation here and Washington, D.C., for 
one of their conferences.
    Let us start with the ability for tribes to declare 
disasters. I hear what you are saying but help me understand 
your timetable because it has been a year since the authority 
was granted, and honestly I am nervous that the way this place 
works in Washington it takes time and usually time means it 
happens many years later.
    I need you to be more definitive on what you think, I guess 
there are a couple of parts to this question. When do you think 
you can move forward on these regulations in order to really 
clarify what the tribes can do, recognizing, that you are 
allowing some flexibility at the same time?
    But how and when will you get back into play?
    Second, I recognize from some discussions we had last night 
and this morning, our staff with yours, that there is some more 
effort going to be applied to the tribal consultation.
    So, in your regulation drafting and rules, what is the role 
you take and where are and how will you engage the tribes? I 
will be frank with you. Just doing it by phone calls and 
teleconference is great, but physically going out to some of 
these locations I think is very important.
    There are a lot of unique moments. For example, the 
National Indian Congress had met here this week, it would have 
been a great opportunity to have that engagement and discussion 
and work around or work session. The Alaska Federation of 
Natives has huge events off and on.
    Give me your thoughts on a timetable and how you will 
engage the tribes in a very meaningful discussion, not just 
check the box. I am not saying that you are doing that. But to 
be frank with you on some Federal agencies, they checked the 
box on travel consultation by making a call and then they say 
they are done. That is honestly not acceptable.
    Tell me your thoughts there.
    Mr. Fugate. My experience tells me that, unless we go to 
where the tribes want us to go and we meet in person, we are 
not done in consultation. I fully agree with you that 
conference calls, emails, and other tools do not work. At least 
the initial consultations.
    But that required me to shift resources. Coming out of 
sequestration and the other difficulties, again we are very 
pleased to be back in normal order with a budget because that 
does allow me now to move resources to provide travel budgets 
so that we can get out in the field.
    We are basically looking at between our various tribal 
liaisons and other program areas about three quarters of a 
million dollars so far that we are identifying that we are 
going to require to support this that we have internally made 
available to start that process.
    So, the tribal consultation is, the policy, is in the first 
phase to be implemented; and from that, we are also building a 
draft policy guidance for tribal declarations.
    We plan to implement that, Mr. Chairman, as a draft, not 
waiting until we have final rules. We will do it under our 
authorities under the pilot authorities you gave us in that. I 
will see that this year but we do not want to go too fast there 
because I do not want to get ahead of the consultation.
    When you are trying to make this fit for a variety of 
tribal governments, some that are in multiple States and have 
very large sophisticated governments down to villages that are 
incorporated, we want to make sure that we have that input.
    So, we are moving toward that for this year. We will do it 
as a draft pilot to begin the implementation not waiting for 
the rules to be finally published. We also want to build some 
flexibility in that as we are going for that process and go 
through actual tribal declarations. We can build that back into 
any final product that we would then submit for rules.
    Senator Begich. To narrow it down, it sounds like you are 
moving forward on this. The budget that we just did through the 
Appropriations Committee that I sit on, we have been able to 
give you your authority through 2014 and the money.
    You think about three quarters of a million, give or take, 
to start giving you the flexibility you need to get out into 
the field, and I think you are right. I mean, talking to Alaska 
tribes will be different than talking to Oklahoma tribes, 
Arizona tribes, or Washington State tribes.
    So, do you see that process that you are engaged in as 
going to happen throughout this year then or shorter than that? 
Help me understand that outreach part.
    And the reason I ask you this is I want to make sure that 
we do not miss these opportunities when these groups are 
meeting to connect, because this is very important. Some tribes 
will never take this authority, although depending on the 
State, because it requires match and other things. But some 
tribes really want to do this, and I know they have contacted 
your office already just in inquiry but also in action.
    So, help me understand the timeline we are trying to work 
through.
    Mr. Fugate. The timeline is now, and again we had been 
attending the major conferences. This will give us some more 
flexibility to go to more of the regional conferences.
    But the other part of this, Mr. Chairman, is I want to make 
sure that I have the ability to go meet tribal leaders where 
they are. In some tribes, if we meet them at the associations 
and conferences, that has met that need.
    But we also are prepared to literally go to reservation 
land to sit down with tribal elders and elected leaders to talk 
and listen more than anything about this policy.
    So, this is starting an ongoing, I would see this 
throughout the year but we will not wait on the draft policy 
for a year. We are doing this kind currently.
    And so as soon as we feel we have enough of the feedback to 
have a good framework for the draft policy, we want to begin 
implementing that as pilots but to constantly continue to 
update that.
    Part of this we are going to learn through doing. But I 
have been very clear to staff that I do not consider 
consultation, by our definition, successful because we said we 
consulted unless the tribal government said we consulted with 
them on their terms.
    Senator Begich. Got it. As you progress then, I am assuming 
you will keep us informed here in the Committee on the progress 
on that.
    Mr. Fugate. Mr. Chairman, what I can do is have staff 
submit to your staff our current work plans----
    Senator Begich. Excellent.
    Mr. Fugate [continuing]. Our current tribal consultation 
policy, the direction we have, and the group that we have 
established within FEMA to manage this and give you progress 
updates on that and some timelines of when we expect products 
to be coming forward.
    Senator Begich. Fantastic. That would be great. Because 
another role that I have, I sit on the Indian Affairs Committee 
and I know this will come up potentially in some of the 
discussions. It is our way to get input in another venue, and I 
would want to make sure we are keeping on track. So, that would 
be great.
    Let me ask you about some of the efforts, two part. One, I 
know within some of the work you are doing the definition of 
local government is potentially being expanded a little bit 
including ports, potentially nonprofits, some other 
organizations.
    The overall concern is that we have a certain amount of 
money available, but now we are adding more definitions so the 
amount that may go to what we would call traditional defined 
local governments is going to potentially be diminished because 
now you are increasing capacity.
    Are you worried that, we are going to be giving less out to 
more and therefore not getting the bang for the dollar?
    And then on top of that, do you think there will be other 
groups now coming out of the woodwork and say, well, you 
included, the ports; you included the service nonprofits, what 
about and then fill in the blank.
    The next thing is we have a laundry list of the groups we 
are now having to deal with. Can you give me some thought on 
that definition?
    My second part to this will be a much broader sweep of 
dollars for your consolidation effort and some of that go to 
the States where local governments, as you can imagine as a 
former mayor, I hear plenty from mayors on a regular basis that 
State governments are notorious for not delivering those 
dollars all the way down to local governments.
    Now, there are some that are very good about that, that 
have a good working relationship. But that is not the case 
across the Nation.
    So, first question on definition; the second is on the 
delivery.
    Mr. Fugate. Yes, sir. Definitions are coming out of the 
authorizing language that would be required to implement a 
national preparedness grant system because, under the 
definition of 9/11, we would not be able to fund the port 
authorities and some of the transit authorities which are not 
considered local governments. So, the definition there is to 
allow for that and the consolidation of the grants.
    Again giving flexibility to the States often times runs the 
issue of dilution. But it is also the prerogative, I think, to 
give that flexibility where appropriate to look at other groups 
that would benefit from this.
    It does not preclude people coming already. When I was at 
the State of Florida, just about anybody who thought they had 
an nexus to terrorism funding were making their case that they 
should be funded out of the State homeland security grants.
    It did not mean they were eligible, and even if they were, 
did not mean they were going to get funded if they did not 
contribute to the mission.
    But the purpose in the national preparedness grant was to 
do no more than to provide for no exemptions against port 
authorities in the consolidation of the grant because under the 
current language, as I understand it, they would not be 
identified as a local government entity.
    That was not the intention of consolidating those grants, 
to shut out the port authorities. They again have been 
receiving funding so we would not see this as any more or less, 
just clarifying the language so that if we consolidate them, 
they would still be eligible.
    Senator Begich. What about this whole issue, and again I am 
very biased here and I recognize your history but also, I think 
our State does a pretty good job in working with local 
communities but that is not the case in most States. I should 
not say most States. In several States.
    How do we solve this problem and are we premature in moving 
this forward with a State kind of directive? I appreciate it is 
going from Federal down because the less the Federals touch, 
the more we can get it to the service levels we need.
    But when it comes to disaster relief, most time it is local 
communities that are dealing with it anyway on the first front. 
They are the first responders. They are the ones dealing with 
the outcome and they are usually the ones hanging it on. While 
the State leaves them after a year or two, they are still 
cleaning up the messes.
    So, how will you and your office manage this in order to 
ensure that the local governments in States that may not be as 
receptive to local governments are?
    I know that is a little tricky because we do not want to 
dictate how State sovereignty in the sense of these governments 
work but, let us assume for a second that we consolidate, we go 
through legislative action and it all happens, the first people 
we are going to hear from is not the State governments because 
they are going to get the money. It is going to be the local 
governments of those States that are not seeing the money.
    So help me in understanding your thought there and I want 
to underline this, I understand this will take legislation and 
a whole different process. But as part of your budget, you are 
recognizing this as a potential budget element in consolidation 
of some of these programs.
    Mr. Fugate. Mr. Chairman, the issue between State and local 
governments, whether the money goes through the urban security 
areas and the State does not have the visibility to prioritize 
overall State issues, the money goes to the State and the urban 
areas feel they are not getting their fair share.
    I have been a local. I have worked at the State. I built 
and worked under Governor Bush to build the first State 
homeland strategies before urban areas were created.
    I dealt with that after they were created, and I would have 
to say that again we recognize that there are certain priority 
grant programs. We are not recommending consolidation. We are 
not recommending the emergency management preparedness grant 
programs. That goes back to the Civil Defense Act. That is a 
stand-up program. It is not tied to this directly, the same 
with the fire grants.
    But when you talk about the homeland security grants 
whether they are port and transit, whether they are the urban 
security area initiatives, or they are the State homeland 
security grant programs. Those are prominently focused on the 
potential of either preventing a terrorist attack or in the 
event a terrorist attack occurs, the capability to respond.
    The challenge you have is, once it exceeds the local 
authority, the local official you as mayor remember, you go to 
the State.
    Senator Begich. That is right.
    Mr. Fugate. If the State is not part of that process, we 
produce the potential disconnects. Now, as much as everybody 
says the problem of trust about the funds, the reality is the 
response structure and the authorities and the Constitution for 
this arise from these States' constitutions and authorities and 
powers they present.
    And so, this is really bringing funding back and 
recognizing that those structures may be imperfect; but if we 
are moving away from that, we create disconnects. And the 
challenge in the legislation and the authorization language is 
to put enough guidance and tools in there to really build a 
better team of State and locals planning together versus----
    Senator Begich. You just hit on what my next question was 
going to be, and that is, do you think that the tools can be 
applied in legislation like this?
    Obviously, you can never get down to the management of it 
because the goal here is to allow States and local governments 
to manage their affairs which is a great step, in a lot of 
ways.
    But do you think there can be enough tools in that 
legislation or the authorizing legislation to give a strong 
enough guidance, and also oversight from you as an agency, this 
is, as a Committee, that we could watch this process.
    So if we think or you think as an agency a year, 2 years, 3 
years out there are problems, that we can create tools that can 
give flexibility to solve that problem rather than having to 
have all new kinds of legislation, because around this place, 
if you can pass a piece of legislation, you want to go.
    And if you have to tweak it later, do you think we can 
create tools in the legislation to allow some of that from your 
experience as an administrator?
    Mr. Fugate. From my experience, if we have in the 
authorizing language clear outcomes and within that we have 
clearly identified who must be part of that process and the 
representation that it requires to have that consensus 
decision, recognizing that there needs to be a certain amount 
for the law enforcement community that has to be addressed, so, 
Mr. Chairman when I got here this was all a bunch of different 
grants.
    We are down to basically three large pots and all we are 
really talking about is can we close that down into one stream 
to get better prioritization.
    But when I got here, we had funding just about broken into 
seven different categories. We are really talking right now the 
State homeland security grants, the urban security initiative 
grants, and then a competitive grant amount for port and 
transit.
    And again I realize every constituency wants to see the 
visibility and have those funds rather than such a way that 
they have minimum outside influence on that but I also 
recognize that by putting that money together, we have a better 
chance of building the cohesive team of forcing that interplay 
that, when disaster strikes, the funding is actually driving 
better collaboration versus separating out funding by issue or 
by level of government.
    It is not a popular opinion that I have and I have a lot of 
people that would tell me that after my fourth attempt I should 
be backing off of this. But also I have a duty, Mr. Chairman, 
to present to Congress what I recommend but I also have a duty 
to implement what you then appropriate and tell me to do.
    Senator Begich. Understood. Let me ask you about the $400 
million and I want to make sure I connect with you on this. 
This is a pre-disaster mitigation. This is the initiative, the 
billion plus initiative, is that correct----
    Mr. Fugate. Yes, sir.
    Senator Begich [continuing]. Encompassed within that?
    And you see that $400 million as an opportunity to really 
look at what we talked about, in Alaska----
    Mr. Fugate. Yes, sir.
    Senator Begich [continuing]. Which was how to coordinate 
some of the efforts maybe between your agency, the Corps of 
Engineers, and others to look into the future rather than 
waiting for the action to occur or the natural disaster to 
occur, trying to say what can we do to lower future costs by 
mitigating some of these situations.
    Is that a fair statement?
    Mr. Fugate. That is absolutely the intentions, Mr. 
Chairman.
    Senator Begich. OK. Is there a concern to have within your 
agency not necessarily a robust funding of this issue and 
sometimes defunding that this does not just become a one off 
and that we should think about a two-part equation here.
    For example, within FEMA that pre-disaster mitigation 
program to make sure that is robustly funded and recognizing 
this over here is potentially kind of juice it up for a period 
of time, I do not want to call it a stimulus because everyone 
around here freaks out when you call it names like that but 
basically it is to help move it and accelerate it.
    Is not our best bet to say, look, that is a good idea and I 
am all for it and I am one of those, despite the way the press 
likes to report things around this place, I am actually one of 
those from an oil and gas State that believe in climate change.
    It is happening. My State is the direct result more than 
any State in this country and we see the impacts. It may be in 
the Arctic or what you have seen in disasters that have 
occurred where FEMA is called in.
    I mean Galena is an example. People say, well, that it is 
just another disaster. Well, it is warmer in Anchorage today 
than it is here today here in Washington. I mean, I am leaving 
tomorrow to Anchorage to go get the warmer weather, to leave 
Washington, D.C.
    So, I mean, that is what is wrong with what is going on, 
and climate change is real. It is happening. We have action to 
take.
    So, is it not in our interest to figure out a sustainable 
funding level within your own program and then stimulate it, 
add to it, accelerate it with some additional, because if we do 
not do that and this money goes away after some period, then we 
are back to square one because mitigation does not disappear, 
right?
    I mean, we should be doing this on an ongoing basis because 
the needs are so great, I mean, help me understand. I do not 
want the Administration to keep defunding the program that is 
annual and replacing it with a one-time hit.
    Mr. Fugate. Well, the challenge with----
    Senator Begich. I know that puts you in an awkward position 
because any time you put more money into the program that----
    Mr. Fugate. The pre-disaster mitigation program was 
originally envisioned to fund ahead of disasters significant 
mitigation investments. Unfortunately, that never really 
happened and over the years that fund was cut lower and lower 
and lower to the point where it was essentially providing not 
much more than planning capability and we were not really 
seeing a lot of mitigation.
    There were some good examples but the funding levels just 
were not there. And so, in looking at when you have to make 
hard choices, we found that in many cases it may be unpopular 
but sometimes it is better to eliminate an entire program and 
not try to maintain any infrastructure if it is not really 
accomplishing its stated goals.
    Senator Begich. But are we not doing that with the $400 
million, almost replicating?
    Mr. Fugate. Yes, sir. Well, what we are looking at now is 
because we are authorizing this as a spending program, there 
would not be any additional work to create the program. It 
already exists, and it would bring for the first time large, 
substantial funds to the pre-disaster mitigation program.
    But the pre-disaster mitigation program would be looking at 
all hazards. These would be more targeted and we want to look 
specifically at what are the drivers and the impacts for the 
future to climate disruption and make investment strategies 
through there.
    Senator Begich. So, it becomes more narrow focused, and you 
correct me if I say this wrong at all.
    Mr. Fugate. Yes.
    Senator Begich. More narrow focused, a sizable lift on it. 
And then do you see the ability to have that money in that fund 
limited in time of use or is it a period of time you can use 
it?
    What can we do to make sure that fund does not--because if 
you are forced to do it all in one year, for example, it would 
be insane. You just never can do that. Your system would not 
allow it no matter what you tell me here, and I think you will 
agree with me on that.
    So, how do we manage it so 2 years down the road, there is 
not a Government Accountability Office (GAO) audit and it says, 
you only spent ``X'' dollars and then we could come along and 
say well, let us just take that money and use it for something 
else.
    Help me. Walk through that with me.
    Mr. Fugate. You are absolutely right, Mr. Chairman. This 
would have to be built into the whole timeframe of getting 
plans developed, submitted, approved, money awarded, and then 
construction. We would see everything from acquisition and 
buyouts to construction of projects would take years to do.
    Senator Begich. This is like 5-, 10-years easy, right?
    Mr. Fugate. Yes. So, the funding would have to be tied in 
such a way that we do not want to give them unlimited 
timeframes because the other thing I have learned is that if 
there are no timeframes, it never seems to get drawn down and 
the work is not done.
    Senator Begich. Well, you can build a road for a lifetime.
    Mr. Fugate. But it used to be tied to performance and 
awards so that work is done over a period of time. It would 
have to be funded on a multiyear process to allow projects to 
be brought forward, construction, and the final payments made 
without running the risk of not being able to finish the 
projects.
    But again, I think, if we were able to see this move 
forward, to work on those timeframes, again when we are dealing 
with disaster relief fund mitigation dollars there, those are 
considered no year-end dollars but we try to move those 
projects through. This may require more definitively a 
timeframe but it has to account for, many of these would be 
construction type or acquisition projects.
    Senator Begich. For example, in Kotzebue was a great 
example where we built a road which also was a break and the 
net result was they had a huge storm just last year. If that 
was not there, the town would have been flooded.
    That is a project that someone might have said, well, that 
is just a road but actually, it was a road on the coast with a 
design built into it to protect the area. Literally, it saved 
FEMA, to be frank with you, probably millions of dollars. I 
mean, I was there and I saw the positive impact of that road.
    Is that how you envision that kind of resource?
    Mr. Fugate. Yes, sir, Mr. Chairman. I think President Best 
gave me this guidance when we were traveling in Hurricane Sandy 
and says there is still a lot of discussion about climate 
change. He says I am concerned. We need to be really focused on 
climate adaptation.
    So, it is how do we go forward with our built 
infrastructure and selectively make the improvements and the 
investments for the future risk that then, as you point out, 
saved the taxpayers the cost of responding to another disaster, 
that we have built mitigation, not just for what we have 
experienced in the past, but more importantly the types of 
impacts that we are seeing occur with unfortunately more 
frequency, with often times larger populations that----
    Senator Begich. Yes, that are more severe.
    Let me walk through a couple. I know they have called a 
vote. We probably have about 10 or 12 minutes on it so far. 
They will guide me here but a couple more. Again, I appreciate 
you being here.
    As I mentioned in my opening on the cuts and the flood map 
program, this is almost an ongoing issue and it seems like 
between, let me just say mapping in general.
    You guys do mapping. The National Oceanic and Atmospheric 
Administration (NOAA) does mapping. Interior does mapping. The 
U.S. Geological Survey (USGS) does mapping. It almost seems 
like we should just, because we all have the same, I do not 
want to say the exact same purpose. But when you are mapping, 
for example, a coastline which now Hurricane Sandy for example, 
we are going to have to do re-mapping there. There is no 
question about that and there is some money that has been put 
aside for that.
    But also with flood maps and everything else, it seems like 
there is something here that should just be done in a more 
comprehensive way.
    Do you agree or disagree with that?
    Mr. Fugate. Yes.
    Senator Begich. It seems like everyone has resources.
    Mr. Fugate. It is something that I had been very passionate 
about and working in the interagency is standardizing the 
digital elevation map collection data. If we have standardized, 
and we are getting good progress. When one agency is using 
LiDAR or other techniques to develop these, if they are doing 
it at a scale and resolution that other agencies use, then we 
do not have to re-map that.
    Senator Begich. Right.
    Mr. Fugate. But again those digital elevation maps are key 
to a variety of programs. So, I think this really goes back 
into the world of the geospatial, that as we are collecting 
elevation data as much as we can collect at resolution for the 
best possible community use, then it avoids us having to go out 
and repeat studies.
    Senator Begich. Got you.
    Mr. Fugate. Now, we will still have to do the maps for the 
flood risk, but the key part of that is, if we all have 
consistent high resolution digital elevation maps, whatever 
agency is producing it, then that in turn lowers the cost of 
the production of these products and then allows a variety of 
agencies, both the State and local and the private sector----
    Senator Begich. To utilize them.
    Mr. Fugate [continuing]. To utilize them for a variety of 
issues.
    Senator Begich. Let me ask you more specifically then on 
the flood map program. I know it is a pretty good size 
schedule. On the one hand we are about to, probably today we 
might do a UC on the flood insurance issue. How are we going to 
accomplish this as if we are going in the wrong direction?
    I know you had to make priorities. But what are we going to 
do here to make sure you have the resources? Now, I am sure we 
are going to pass a flood insurance bill which requires, as you 
know, some work in mapping and some other issues?
    Mr. Fugate. Mapping is an annual event, and again as we had 
to make choices, this does not eliminate mapping. It slows it 
down. So again, the resources that we can bring to bear and the 
maps that we can update are tied to the budget but this is an 
ongoing process. We have been funding mapping for a long time 
and we are going to be continuing to update maps as we go 
through the out years.
    Senator Begich. Do you think you have adequate funding and 
do you need more funding for mapping?
    Mr. Fugate. Mr. Chairman, it really comes back to the speed 
at which you want maps updated.
    Senator Begich. If you had more money, could you expedite 
the process?
    Mr. Fugate. It would not be so much expedite as we could do 
additional mapping.
    Senator Begich. In other words, more mapping, more 
capacity, more areas handled. OK.
    I knew you could not answer the questions of saying you 
want more money because then the Office of Management and 
Budget (OMB) will call you very quickly and say, and they might 
be out in the audience for all I know, so.
    But I want to make sure that if you had more resources----
    Mr. Fugate. No.
    Senator Begich [continuing]. Then you could expand more 
areas of the mapping.
    Mr. Fugate. Yes, this is two parts. This is how much can we 
actually manage through our contracts in working with local 
governments that are ready to go.
    Another part, though, is also to continue to look at the 
technology and the cost of maps and finding newer ways to get 
good resolution maps at a lower cost. As that continues to 
evolve, we will look at it.
    But this is really, as much as we talk about FEMA, we have 
to remember this is also local communities. It is their maps 
that they have to adopt. So, part of this is also the bandwidth 
for local communities who are working on maps.
    Senator Begich. I understand. We had a flood plain map, we 
had the wetlands map. We go through the whole process so I am 
very----
    Mr. Fugate. So, you are aware, Mr. Chairman, that is also 
going to be tied, even if we had more resources, the local 
communities have to be ready to go with that.
    Senator Begich. That is right. There is a whole process 
they have to go through even to accept those maps in the 
legislative process depending on the community they are in.
    Mr. Fugate. Yes, sir.
    Senator Begich. Let me ask you this last question and then 
I will end here but I do appreciate your testimony, your 
written testimony too. I am going to look forward to having 
more conversations with you on the legislation issue on 
consolidation. I have some concerns there.
    But one, I hear where you are going and we will want to 
work with you to see how you are going to engage the local 
communities, maybe NACo, League of Cities, Mayors Conference, 
but let me put that aside here for a second.
    I know one of the programs that you have to transfer 
responsibility, I think, is for the emergency food and shelter 
program to Housing and Urban Development (HUD).
    Mr. Fugate. Yes, sir.
    Senator Begich. So, are there other types of programs 
within your organization, I mean, you are gathering some 
efficiency there. I am assume that is what is happening there. 
That is why you are doing it.
    Are there others like that with other Federal agencies, you 
can see partnerships or transfers that make sense to create 
some better efficiencies or better utilization of your 
resources.
    Mr. Fugate. This was one that was kind of an anomaly. I 
think when people talk about emergency food and shelter, this 
is not for disasters. This is for homeless and for feeding.
    Senator Begich. Right.
    Mr. Fugate. These are more aligned with HUD's mission. So, 
our recommendation is----
    Senator Begich. It just aligns with their mission better.
    Mr. Fugate. It is better aligned with their mission. This 
goes back to, let us focus our resources on things that we are 
charged by Congress. We do not think this is something that is 
not important but it more aligns with HUD's missions. It would 
be a more appropriate fit for their program.
    Senator Begich. Very good. I am going to end here. I will 
have a couple more questions probably just for the record but 
generally first thank you very much for your testimony.
    Again as I said, I want to look toward you and working with 
you with regard to how you move forward on the consolidation. I 
have some concerns. We can have those conversations.
    On the tribal land, again I know there were some 
conversations last night and this morning. We are going to be 
anxious. I will be following that very closely because I think 
that is a unique opportunity for tribes. I think it is a huge 
responsibility for tribes.
    I think there are some that may not realize what this all 
means yet. That is why the rulemaking you are doing is going to 
be critical to how you engage them. Not only through this 
Committee but through my office we will be happy to assist you 
in some of those groups to make sure they are not missed and 
engage in that as best we can.
    In regards to the consolidation, I am sure there are plenty 
of people who are watching this conversation they care about 
their specific, one of those 10 items or 12 items that are on 
the list.
    And as we go down this path, I can only ask you to come and 
I am not going to put words in your mouth, but I can assume 
that you will obviously be open to hearing from these groups to 
figure out what the right way, if at all, to do this. Is that a 
fair statement?
    Mr. Fugate. That is a fair statement, Mr. Chairman.
    Senator Begich. Very good. Thank you for your leadership. 
Thank you for your willingness to recognize Alaska is what I 
call every 2-week disaster that we seem to have because it 
seems like it never ends.
    Most recently oddly enough we are now concerned about how 
little snow that we have which is amazing when you think about 
Alaska but it is now becoming a problem from a lot of aspects, 
even in some of our winter construction.
    I will be on the Arctic, North Slope on Saturday and 
because of some of the conditions, the ice roads they build, I 
will have to be on a snow machine and other types of equipment 
in order to get to where I need to get to because full loaded 
trucks will not necessarily be adequate.
    So, I appreciate FEMA's interest in understanding climate 
change too. I think you all are starting to see and your 
interest in seeing mitigation as a part and a significant role 
of FEMA is a huge shift. I appreciate that and I think there 
will be more from us on that and more discussion I know. So, 
thank you very much.
    At this time, the record will be kept open for 2 weeks for 
additional comments from other Members and/or questions.
    At this time, we will adjourn the meeting.
    Thank you very much.
    [Whereupon, at 3:27 p.m., the Subcommittee was adjourned.]
    
    
    
    
    
    
                            A P P E N D I X

                              ----------                              

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


                                 [all]
</pre></body></html>
